                    luation


                    ort

    THE ARMY ENVIRONMENTAL PROGRAM IN GERMANY


Report No. 99-251                      September 15, 1999




              Office of the Inspector General
                  Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
 General, DoD, Horne Page at. www.dodig.osd.mil.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
 fax (703) 604-8932. Ideas and requests can also be mailed to·

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, D C 20301-1900
 The identity of each writer and caller is fully protected.




Acronyms

ASG                  Area Support Group
BSB                  Base Support Battalion
EO                   Executive Order
GSA                  German Supplementary Agreement
NATO                 North Atlantic Treaty Organization
SOFA                 Status of Forces Agreement
USAREUR              United States Army, Europe
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-2884




                                                                        September 15, 1999

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT     Evaluation Report on the Army Environmental Program in Germany
            (Report No. 99-251)


       We are providing this draft evaluation report for review and comment.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly
Because the Commander, United States Army, Europe did not comment on a draft of this
report, we request the Commander, United States Army, Europe provide comments on the
final report by October 15, 1999.

        Questions on the evaluation should be directed to Mr. William C. Gallagher at (703)
604-9270 (DSN 664-9270) or Mr. Michael R Herbaugh at (703) 604-9294 (DSN 664-9294)
See Appendix C for the report distribution. The evaluation team members are listed on the
inside of the back cover.

                                                       ~/
                                    i.,fl /-1-)
                                      ~"('x' l £..t<r-t.--r7""'~
                                          ,      I

                                       Robert 1. Lieberman
                                    Assistant Inspector General
                                           for Auditing
                      Office of the Inspector General, DoD
Report No. 99-251                                                    September 15, 1999
   (Project No 9CB-0088)

               The Army Environmental Program in Germany

                                Executive Summary

Introduction. Executive Order 12088, "Federal Compliance with Pollution Control
Standards," dated October 13, 1978, directs the head of each Executive agency to
ensure that the construction or operation of Federal facilities outside the United States
complies with the environmental pollution control standards of the host country

Objectives. The overall objective was to evaluate the Army environmental program in
Germany Specifically, we reviewed various environmental program elements as well
as the environmental program requirements process, and attempted to determine the
extent of Army liability as defined by the Status of Forces Agreement and Final
Governing Standards. We reviewed the management control program as it relates to
the evaluation objective.

Results. Although the U.S. Army, Europe had a well-established environmental
program in Germany, the following concerns exist·

     •    the impact of the 1993 Amendment of the German Supplementary Agreement
         to the NATO Status of Forces Agreement had not been fully assessed,

     •    a strategy for responding to the impact of the changes had not been developed
         and disseminated for use by the subordinate commands, and

     •    training of environmental personnel on the applicability of the German law and
         the increased potential for German enforcement action was insufficient.

ConsequentlY, the U. S. Army, Europe could incur increased environmental costs for
U.S. forces stationed in Germany; military, civilian, and local national personnel may
be exposed to personal liability ; and U. S. -host country relations could be strained.

Summary of Recommendations. We recommend that the Commander, U. S. Army,
Europe, provide clear guidance to all environmental activities within the U S. Army,
Europe, on the impact of the German Supplementary Agreement, develop a strategy for
responding to the changed substantive and procedural requirements necessitated by the
Agreement; and provide training to U.S. Army, Europe environn1ental personnel.
Management Comments. The Commander, United States Army, Europe did not
respond to a draft of this report dated June 7, 1999 Therefore, we request the
Commander, United States Army, Europe provide comments by October 15, 1999




                                         11
Table of Contents

Executive Summary
Introduction
     Background                                           1
     Objective                                            3

Finding
     Army Environmental Program Requirements in Germany   4

Appendixes
     A. Evaluation Process                                15
         Scope                                            15
         Methodology                                      15
         Management Control Program                       16
         Summary of Prior Coverage                        16
     B. Criteria                                          17
     C. Report Distribution                               19
Background

          In 1990, USAREUR was a command of 213,000 soldiers operating on 858
          installations. With the fall of the Berlin Wall and the dissolution of the Soviet
          Union in 1989, USAREUR downsized to a smaller force structure deemed
          adequate in the post Cold War era As of January 1, 1999, USAREUR
          consisted of 65,000 soldiers who lived and worked on 252 installations across
          Europe Base operations for 7 Area Support Groups (ASGs), containing 16
          Base Support Battalions (BSBs), control these installations

          NATO Status of Forces Agreement. A Status of Forces Agreement (SOFA) is
          an international agreement designed to serve the mutual interests of a host nation
          and U.S. citizens subject to its provisions. The NATO SOFA, signed June 19,
          1951, balances U S. sovereign inununities and an American citizen's individual
          rights with obligations to a host nation's federal and local laws The NATO
          SOFA governs the relationship between Germany and U S forces on matters of
          criminal jurisdiction, passport and visa regulations, taxes, drivers' licenses,
          airport regulations, and other civil and legal matters.

           The 1959 German Supplementary Agreement to the NATO SOFA expanded
           obligations for NATO member forces stationed in Germany. 1 This expansion
           continued with the 1993 completion and 1998 ratification and application of the
           latest supplementary agreement. The NATO SO FA and the 1993 Amendment of
           the German Supplementary Agreement 2 (1993 amendment of the GSA) apply to
           U.S. armed forces personnel (both military and civilian), invited contractors,
           technical representatives, and family members. In addition to the NATO SOFA
           for Germany, there are many existing bi-Iateral stationing agreements between
           Germany and the United States.

           Federal Overseas Environmental Policy. Executive Order (E.O ) 12088,
           "Federal Compliance with Pollution Control Standards," dated October 13,
           1978, directed the head of each Executive agency to ensure that the construction
           or operation of Federal facilities outside the U.S complies with the
           environmental pollution control standards of the host country. While E. O.
           12088 requires compliance with pollution control standards of the host country,



I   Agreement of August 3, 1959, as amended by the agreements of October 21, 1971 and May 18, 1981,
    to supplement the agreement between the parties to the North Atlantic Treaty regarding the status of
    their forces with respect to foreign forces stationed in the Federal Republic of Germany (1959 German
    Supplementary Agreement)
2   The agreement to amend the agreement of August 3, 1959, as amended by the agreements of
    October 21, 1971 and May 18, 1981, to supplement the agreement between parties to the North Atlantic
    Treaty regarding the status of their forces with respect to foreign forces stationed in the Federal
    Republic of Germany, signed March 18, 1993 (1993 German Supplementary Agreement) The
    agreement became effective March 29, 1998
USAREUR Regulation 200-1 provides that in the absence of an agreement to the
contrary, the U.S., as a sovereign power, may not be compelled to comply with
procedural requirements.

Department of Defense Overseas Environmental Policy. DoD published
DoD Directive 6050.16, "Policy for Establishing and Implementing
Environmental Standards at Overseas Installations," September 20, 1991, which
was superceded by DoD Instruction 4715.5, "Management of Environmental
Compliance at Overseas Installations," dated April 22, 1996 This directive:

    •   mandated the publication of a baseline guidance document,

    •   provided for the identification of an environmental executive agent for
        each foreign country with DoD installations or facilities;

    •   required environmental executive agents to publish Final Governing
        Standards for each country with DoD installations or facilities; and

    •   required the environmental executive agent to consult with host-nation
        authorities on environmental issues to maintain effective cooperation

The directive mandated establishment of the Overseas Environmental Baseline
Guidance Document, which sets the minimum overseas environmental standards
based on applicable provisions of United States laws as well as DoD
environmental policies. These minimum standards are used in developing
country-specific Final Governing Standards. The Final Governing Standards are
a comprehensive set of substantive environmental provisions to which each DoD
Component must comply in a specific foreign nation.

Further policy, contained in DoD Instruction 4715.8, "Environmental
Remediation for DoD Activities Overseas," February 2, 1998, requires
remediation of DoD-caused environmental contamination when known imminent
and substantial endangerment to human health and safety exists. The Instruction
also allows remediation if required to maintain operations or protect human
health and safety.

Army Overseas Environmental Program. Environmental standards for Army
commands in Germany are defined in Army Regulation 200-1, "Environmental
Protection and Enhancement," dated February 21, 1997 This guidance
implements:

    •   applicable international treaties, such as the Status of Forces
        Agreement;




                                     2
        •   country-specific Final Governing Standards, or in the absence of Final
            Governing Standards, the Overseas Environmental Baseline Guidance
            Document; and

        •   Unified Command, major command and service regulations.

    The USAREUR staff proponent for that command's environmental program is
    the Deputy Chief of Staff, Engineer who implements the Army environmental
    program in Europe through USAREUR Regulation 200-1, "USAREUR
    Environmental Quality Program. "



Objective

    The overall objective was to evaluate the Army environmental program in
    Germany. Specifically, we reviewed various environmental program elements
    and the environmental program requirements process, and attempted to
    determine the extent of liabilities to the Army as defined by the SOFA and Final
    Governing Standards. We also reviewed the management control program as it
    relates to the evaluation objective. See Appendix A for the evaluation process
    and review of management controls.




                                        3
            Army Environmental Program
            Requirements in Germany
            The Army environmental program in Germany is well established;
            however, it is facing increased environmental requirements The 1993
            amendment of the GSA to the NATO SOFA expands the U.S Army
            environmental obligations and increases German involvement in U.S
            environmental compliance. The U.S. Army in Germany is not prepared
            to comply with the additional requirements because USAREUR
            headquarters has not fully assessed and provided adequate guidance on
            the impact of the 1993 changes, developed and disseminated a strategy
            for responding to the impacts of the changes, or trained environmental
            personnel on the applicability of German law and procedures and the
            increased potential for German enforcement actions. Consequently,
            USAREUR could incur increased environmental costs for U. S. forces
            stationed in Germany; military, civilian, and local national personnel
            may be exposed to personal liability; and U.S.- host nation relations may
            be unnecessarily strained.



Conduct of the Army Environmental Program in Germany

    USAREUR Environmental Program. The Army environmental program in
    Germany is well established. USAREUR established a command environmental
    program with the goal of incorporating environmental stewardship into all
    military objectives. The command objectives to meet this goal are:

        •    attain compliance with all host-nation and applicable U.S. requirements,

        •    remediate contaminated sites as quickly as resources permit;

        •    adopt and implement management approaches, procedures, and
             operations to minimize contamination and pollution; and,

        •    conserve, protect, and enhance natural and cultural resources.
    USAREUR has implemented policy, procedures, and systems to evaluate,
    achieve, maintain, and monitor these environmental program goals.

    Environmental Program Elements. The elements of a well established and
    fully functional environmental program are listed in DoD Directive 4715.1,
    "Environmental Security," February 24, 1996. The elements of a complete
    environmental program for Army forces in a foreign country are described in
    Chapter 14 of Army Regulation 200-1 The USAREUR program contains all
    the key elements of both.


                                         4
       Executive Agent Responsibility. As the environmental executive agent
for Germany, USAREUR conducted a comparative analysis between the
Overseas Environmental Baseline Guidance Document and the substantive
German environmental standards to publish the Final Governing Standards for
Germany on March 14, 1996

       Compliance. USAREUR adopted the Army's Environmental
Compliance Assessment System in 1994 to identify and anticipate environmental
requirements. USAREUR uses the Environmental Compliance Assessment
System to provide installations with a comprehensive environmental evaluation.

       Remediation. USAREUR programmed remediation claims totaling
approximately $10 million per year in the FY s 2000 - 2005 Future Years
Defense Plan. The claims, processed through the U.S. Army Claims Service
Europe, were validated, programmed, and budgeted in order to maintain
operations and foster positive relations with the host-nation government.
Although no known, imminent and substantial endangerment situations existed,
USAREUR considered these claims necessary to preserve positive relations with
the host-nation government

        Pollution Prevention. USAREUR implements the pollution prevention
 program through the Environmental Compliance Assessment System evaluation,
.Hazardous Material Control Centers, and through the development of a
 command pollution prevention plan that identifies strategies and opportunities to
 reduce the amount of hazardous materials used and hazardous waste generated.

Environmental Program Requirements Report. USAREUR uses the Army
Environmental Program Requirements Report to manage the environmental
requirements generated by the command environmental program. The
Environmental Program Requirements Report provides the Army with the
primary means for identifying and documenting all current and projected
environmental requirements and resources needed to execute the program.

        Must Fund Requirements. Army commands overseas must categorize
their environmental requirements using the same classification and prioritization
criteria that are used in the United States. Al1 projects and activities identified
in the Environmental Program Requirements Report are classified according to
their compliance status. The classification system has four distinct classes (0, 1,
2, and 3). Class 0 consists of recurring requirements; Classes 1,2, and 3
constitute non-recurring requirements. The Army designates Class 2 high
priority items as 2H. The Army considers Classes 0, 1 and 2H as "must fund"
requirements for the fiscal year the requirement is found to be noncompliant.

         Programming and Budgeting. Army environmental requirements are
 validated by the Army Environmental Center and programmed by the
 Installation Program Evaluation Group. We did not do additional validation of
 these estimates during our review The Installation Program Evaluation Group
 programs response to environmental requirements by allocating available
 financial resources, reconciling conflicts involving unfunded requirements, and
 evaluating budgetary realignments to meet existing shortfalls and changed
 requirements.

                                     5
The Installation Program Evaluation Group also prioritizes unfunded
requirements. An unfunded requirement will be carried over to the next fiscal
year or until funds are obligated against that requirement As of FY 1999, there
are 10,471 "must fund" environmental requirements in the Army Environmental
Program Requirements Report with an average of 3,000 funded annually.

Budget and Unfunded Requirements. The table below shows USAREUR
Program Budget Guidance environmental funding for the FYs 2000-2005 Future
Years Defense Plan. By comparing the USAREUR Environmental Program
Requirements Report requirements with the Program Budget Guidance, the table
shows a trend of increasing unfunded requirements during the FY s 2000-2005.
This shortfall represents the difference between validated requirements and
programmed dollars. The shortfall is expected to be $30.8 million for FY 1999,
and because of the carry-over of requirements resulting from under funding,
will increase to more than $111 million by FY 2005.


                       Table 1. USAREUR Environmental Funding
                                     (in millions)

                                 FY 99 FY 00 FY 01 FY 02 FY 03 FY 04 FY 05                  i


iClass 0, 1, and 2H               $66.2       $62.3   $640 $47.5    $47.2   $40.0   $36 9
                1
I
.Restoration                       7.6        12.7    6.8    6.5    15.5     9.1    11.6 :

      Must Fund Requirements2     $73.8 $75.0 $70.8          $54.0 $62.7    $49.1   $48.5;
                                                                                            ~



    Unfunded Forward               16.2       30.8    52.4   73.7   85.2    103 7 108.9.

      Total FY Requirements       $90.0 $105.8 $123.2 $127.7 $147.9 $152.8 $157.4

    Program Budget Guidance 3     59.2        53.4    49.5   42.5   44.2    44.0    46.0

      Unfunded Forward            $30.8 $52.4 $73.7 $85.2 $103.7 $108.8 $111.3

    1 "Policy and Guidance for Identifying U.S. Army Environmental Program

    Requirements" (Green Book), Headquarters, Department of the Army, August 1998.
    2 Green Book and Army Vice Chief of Staff Memorandum dated April 22, 1996.

    3 USAREUR   FYs 2000-2005 Future Years Defense Plan.


    Increased Environmental Requirements. The Army's environmental program
    in Germany is one of the more mature overseas programs. However, it is
    undergoing major changes caused by an expansion of U.S. obligations under a
    revised 1993 amendment of the GSA; increased German oversight, supervision,

                                          6
          and monitoring of U.S. environmental compliance; and the lack of a
          comprehensive and strategic response by the USAREUR. These factors are
          increasing U.S. environmental program requirements, costs, and the risks for
          civil and criminal liability of Army uniformed and civilian personnel.


1993 German Supplementary Agreement Expands U.S.
Obligations

          The 1993 amendment of the GSA expands the obligations of the U S. military in
          Germany and increases German oversight, supervision, and monitoring of US.
          environmental compliance. While the 1993 amendment of the GSA governs the
          status of all foreign forces in Germany, this report focuses on the agreement
          only as it pertains to the status of U. S. forces and the relationship between
          Germany and the U.S military and its civilian Component With the
          application of the 1993 amendment of the GSA, the U.S. forces in Germany are
          obligated to apply, and in some cases comply with, German environmental laws
          unless there are no third party effects 3 . This holds true for substantive as well
          as certain procedural aspects. Compliance with the procedural aspects of
          German law creates new environmental requirements for USAREUR and
          increases the potential for punitive and enforcement actions The 1993
          amendment of the GSA also provides for greater oversight and supervision by
          German officials over the USAREUR environmental program

          1993 Amendment of the GSA Expands the Obligations of the U.S. Military
          in Germany. Germany renegotiated the GSA, after obtaining full sovereignty
          in 1991, to remove any "occupation-type" provisions from the agreement and to
          provide for other matters such as the environment. The NATO SOFA is silent
          on the environment, while Germany has developed demanding environmental
          standards and a growing body of environmental laws. Consequently, the 1993
          amendment of the GSA creates an obligation for the U. S. military that goes
          much further than the NATO SOFA and the 1959 GSA in making German
          environmental laws applicable to U. S. military operations and installations.

           From Respect to Apply and Comply. Article II of the NATO SOFA,
           establishes a U.S. duty to respect German law in general. However, Article 53
           of the 1959 GSA allowed the U. S. military to apply its own internal public
           safety laws and regulations on U.S. installations in Germany. One major
           change in the 1993 amendment of the GSA was an amendment to Article 53,
           which provides generally that German law applies to the use of U.S. facilities
           except where there are no foreseeable effects on the rights of third parties,
           adjoining communities or the general public.




3   DoD policy does not interpret what "foreseeable effects on third parties or the general public" means or
    prescribe how the standard is to be applied in the context of environmental compliance


                                                      7
Other provisions of the 1993 amendment of the GSA impose additional
requirements for compliance with German law in several areas. Article 53A
was a new provision that obligated the United States to comply with German
laws requiring permits, and to operate regulated facilities in compliance with the
conditions of the permits. Article 57 was amended to rescind the special rights
of U.S. forces relating to the transportation of hazardous materials and waste in
Germany. Unless the U. S. forces are exempted by other provisions of the GSA
or are granted a special permit or an exemption from German regulations, U. S.
forces are now obligated to comply with German law regulating the
transportation of hazardous materials and waste.

From Higher Standard to Third Party Effects. Before the 1993 amendment
of the GSA, U S. environmental laws and regulatory standards could be applied
within a U.S. facility, except where German law set a higher standard. German
law now applies in all cases except where there are no foreseeable effects on the
rights of third parties, adjoining communities, or the general public
Accordingly, as environmental matters of any consequence will likely have
"foreseeable effects," the basis for determining the Final Governing Standards
for Germany may have been changed. In practice, the safest cours~ may be to
apply German environmental standards.

From Substantive to Substantive and Procedural. E.O. 12088 requires U.S.
Federal facilities overseas to comply with environmental pollution control
standards of general applicability in the host country. In the past this
requirement has been interpreted to apply only to substantive, not procedural
standards. According to USAREUR, the 1993 amendment of the GSA now
subjects the U.S military to application of the substantive and procedural
aspects of applicable German law. Applying procedural law means keeping
records, getting permits, or obtaining other types of German approval Every
German environmental law and procedure made applicable to US. military
operations and installations involves a new requirement.

Potential for Punitive and Enforcement Actions. According to the Chief,
International Law Division, USAREUR Office of the Judge Advocate, U.S.
civilians and local nationals working for the U.S. military have always been
subject to German law. Uniformed personnel can be charged with criminal
environmental violations, but jurisdiction for trying uniformed personnel usually
shifts from German authorities to U. S. miliiary authorities. Before the 1993
amendment of the GSA, U. S. personnel were not subject to environmental
enforcement actions. In the past U.S. forces needed only to comply with
substantive laws. The most significant effect of the GSA revision is that U.S.
forces now must follow administrative and procedural law as well. However,
according to the Chief, International Law Division, we have always been subject
to the law, the difference is that now there is a greater potential for enforcement
actions. German courts have jurisdiction over all parties in civil actions
regardless of nationality or military status.




                                     8
    Increased German Access. The 1993 amendment of the GSA also increased
    German access to U.S. Army installations and provided a defined role for
    German authorities in monitoring U.S. compliance matters. Amendments to the
    Protocol of Signature Re Article 53 provided greater access for German officials
    to inspect U. S. facilities and to safeguard German interests. U. S. facilities are
    dependent upon German authorities to obtain permits, licenses, or other forms
    of official permission on behalf of the United States. Article 54A requires U S
    Army authorities to cooperate with German authorities concerning the
    identification and evaluation of the environmental compatibility of all projects
    Under Article 57, German and U. S authorities jointly supervise the
    transportation of hazardous material. As a result, the 1993 amendment of the
    GSA provisions increased environmental requirements in Germany. These
    circumstances may increase the risk of personal liability for the Army and its
    civilian Component, especially for German local nationals employed by the
    Army.



German Response to the 1993 German Supplementary
Agreement

    As mentioned above, the 1993 amendment of the GSA to the NATO SOFA
    greatly increases the Army's environmental requirements in Germany. This
    development is based on the increased environmental awareness of European
    governments and the German government in particular, and on the 1991
    establishment of full German sovereignty. This assertion of sovereignty led to a
    reduction and possibly an eventual elimination of the special status of U.S.
    forces stationed in Germany. The combination of these two effects increased
    German involvement in USAREUR environmental programs.

    Increased Environmental Awareness in Germany. Germany has a robust
    environmental program and the addition of the Green Party into the governing
    coalition has further increased environmental awareness In addition, the
    number and sophistication of German environmental laws continues to increase
    The new German waste avoidance, recovery and disposal law
    (Kreislaufwirtschafts- und Abfallgesetz) is dated September 27, 1994. The new
    battery ordinance (Verordnung ueber die Ruecknahme und Entsorgung
    gebrauchter Batterien und Akkumulatoren) and updated soil protection law
    (Bodenschutzgesetz) are both dated March 1998. The inclusion of the
    environment into renegotiations of the 1993 amendment of the GSA is further
    indication of the importance of the environment to the German government.

    Eliminating Special Status. The current status of U.S. forces in Germany has
    evolved from the occupation following World War II. As Germany has regained
    sovereignty the special privileges of the former occupation forces have
    decreased and German state officials increasingly require compliance with
    German law in areas where U. S. citizens were previously exempt. There are
    several indications of this trend in the environmental arena with the following
    two examples.


                                          9
        •   The 1993 amendment of the GSA contains new requirements for safety
            advisors for hazardous material and, based on the current interpretation,
            hazardous waste cargo handlers must be trained on German procedural
            requirements and candidates must pass the test given in German. This
            point is still under negotiation, however, it would be the first case where
            the Germans would demand compliance with an environmental
            regulation which requires the members of the U.S. forces to speak and
            read German. This would require the U.S. military to hire either more
            German speaking civilians or local nationals.

        •   The U.S. military will no longer be exempt from German permitting
            requirements for environmental processes. While German federal
            agencies and officials will act on behalf of the U.S. military in obtaining
            permits and exemptions, these permits create an obligation to comply
            with permit provisions, namely German regulations.

    Increased German Involvement. Since the 1993 amendment of the GSA was
    ratified, German involvement in the environmental program has increased on
    U.S. bases. The most important aspect of this involvement is that the degree of
    enforcement by Germans has changed. Threats of enforcement actions against
    individuals and an increase in letters of concern from local officials indicate this
    change.

    The 417th BSB provided an example of a threat of enforcement. The BSB
    received a letter from Bavarian state officials in March 1999, which threatened
    to levy a fine against the BSB if action was not taken on the issue of cleaning an
    old laundry site. The letter was an attempt to get the BSB to act faster.
    Officials at the 41 Th BSB said that they had not received a letter with such
    language and tone before the 1993 amendment of the GSA revision.

    Both the 98 th and loath ASGs reported an increase in the number of written
    complaints. They estimate that the number has almost doubled since the 1993
    amendment of the GSA revision went into effect and the complaints cite German
    laws. According to the 417th BSB this demonstrates an increased awareness and
    intention of the German authorities to enforce their environmental laws.



USAREUR Response to the 1993 German Supplementary
Agreement
    USAREUR needs to respond more effectively to the 1993 amendment of the
    GSA. For example, USAREUR has provided insufficient policy guidance on
    the impact of German environmental regulatory changes defined in the 1993
    amendment of the GSA. USAREUR has not provided:




                                          10
    •   a complete assessment and policy guidance on the legal and practical
        impacts of the changes to environmental standards and procedures in the
        1993 amendment of the GSA to the SOFA,

    •   a strategy for responding to the impact of environmental changes, and

    •   training on the applicability of German environmental laws and the
        potential for enforcement actions.

Legal and Practical Impacts of Environmental Changes. USAREUR
headquarters has limited staffing available in the Office of the Judge Advocate to
respond to the magnitude of changes caused by the implementation of the 1993
amendment of the GSA. That office reviews and evaluates environmental issues
submitted to the ASGs and BSBs by local government officials, however, legal
responses are not always timely because of limited resources. ASGs and BSBs
have local nationals on their staff to support the environmental program and to
assist with accessing local German environmental laws and to facilitate
communication on environmental issues through working groups and daily
contact. Promulgation of comprehensive guidance and procedures for use by
USAREUR subordinate commands would help alleviate this problem

Command Strategy for Complying with GSA. Although USAREUR
acknowledges the importance of environmental protection, USAREUR has not
developed a strategy for responding to increased German environmental
requirements reSUlting from the 1993 amendment of the GSA. A formal
strategy for the command that provides the methodology for responding to
increased regulatory oversight would assist ASGs and BSBs in complying with
the requirements. For example, where German law requires a permit or other
form of approval, U.S forces must acquire the permit through German agencies
and must comply with the conditions contained in the permit. Substantial
changes to existing facilities and minor construction now require a permit. A
command strategy and accompanying guidance would limit the uncertainty when
dealing with host nation officials.

Training of Personnel. USAREUR has not provided adequate training to
Army environmental program managers at ASGs or BSBs. Personnel are not
aware of the applicability of German environmental laws or the potential for
German regulatory enforcement actions against Army environmental personnel.
Since the 1993 amendment of the GSA ratification, local German regulatory
officials have submitted a greater number of letters of environmental concern to
ASGs and BSBs. Army personnel expressed concern about the extent to which
local German regulatory officials may use the 1993 amendment of the GSA
revisions to initiate enforcement actions for environmental violations. The 1993
amendment of the GSA also generated new training requirements for current
employees.




                                    11
Impact of 1993 German Supplementary Agreement Changes

    The consequences of the ratification of the 1993 amendment of the GSA, and
    the ensuing German and USAREUR responses fall into two categories.

        •   The agreement itself has generated increased environmental
            requirements for the U.S. forces in Germany.

        •   Failure of German officials and USAREUR to respond appropriately has
            increased the risk of personal liability of individuals working for
            USAREUR.

    Increased Environmental Requirements. The 1993 amendment of the GSA
    generated increased environmental requirements. These requirements include
    increased costs, more paperwork, and additional time and expertise.

            Cost. According to the USAREUR Office of General Counsel, one
    objective of the U.S in the conduct of negotiating the 1993 amendment of the
    GSA was to keep it cost neutral. An attorney in that office stated that they did
    not achieve this objective An attorney in the Office of the Legal Advisor, U S
    European Command, agreed with USAREUR Office of General Counsel and
    said that there is a need to collect impact data and to analyze changes to local
    regulations and how they affect U.S. forces. While the 1993 amendment of the
    GSA is not the root cause of the current environmental funding shortfall, adding
    requirements increases the growing number of unfunded requirements.

            Paperwork. The 1993 amendment of the GSA generated additional
    costs due to German procedural requirements Increased paperwork for
    permitting and certification and the need for increased training are examples of
    those procedural requirements. According to the 1993 amendment of the GSA,
    the Germans will help the U. S. forces obtain all permits. Existing
    environmental processes were extended by a grandfather clause, however,
    gathering the information required to exempt hundreds of existing facilities and
    processes was an unfunded project, expending manpower and resources at all
    levels.

            Time and Expertise. Additional time and expertise are required to track
    new as well as existing German regulations and to comply as required. Due to
    the lack of environmental legal support throughout USAREUR, local national
    environmental managers at the ASGs and BSBs obtain changes to German
    regulations off the Internet. Environmental managers are expected to interpret
    and translate these regulations, something they currently lack the legal training
    to perform




                                        12
   Personal Liabilities. Due to sovereignty, the U.S. Government is immune
   from enforcement actions by the German government. Individuals working for
   the U.S forces, however, are at risk for criminal, civil, and administrative
   enforcement actions. Legally, the uniformed military and civilians working for
   the U. S. forces are distinct groups.

   Common practice in USAREUR is to have uniformed military personnel sign
   hazardous waste manifests, in the belief that they are immune from prosecution
   by the German authorities. A 1998 case, when canisters of CS
   (orthochlorobenzalmalonitrile) riot gas were found in household trash in Vilsek,
   is a prime example. The German authorities began the investigation, but turned
   it over to the U.S. Army Criminal Investigation Command when they
   discovered that aU. S. Army Warrant Officer had signed the manifest.

   The German authorities did not necessarily have to pass jurisdiction. Criminal
   liability for military personnel might be imposed under either German law or the
   Uniformed Code of Military Justice, as circumstances dictated. Article VII of
   the NATO SO FA addresses jurisdiction of the matters by U. S or Germany or
   concurrent jurisdiction with one primary country; but the article is subject to
   interpretation and sometimes negotiation. Whether an offense is committed in
   the course of performing official duties would also be an important
   consideration. Where the offense is grave enough, the host nation may make
   great efforts to obtain the right to exercise jurisdiction even where the offense
   was committed by uniformed military personnel in the exercise of official duty.

   Department of the Army civilians and local nationals working for U S. forces
   are not protected by the SOFA. In addition, USAREUR, as all other
   Components of the Department of Defense, choose not to purchase professional
   liability insurance for government employees. When this is combined with ever
   changing regulations and an atmosphere of increased enforcement, the result is
   greatly increased risk. German nationals working for the U S forces are at the
   greatest risk, and they are acutely aware of this fact.



Summary

   The Army has an active environmental program in Germany. However,
   USAREUR has not provided clear, comprehensive guidelines on the changes
   made by the 1993 amendment of the GSA to the NATO SOFA and their impact
   on the ASGs and BSBs. Also, USAREUR has not established sufficient policy
   guidance for field activities to use in response to the increased German
   environmental regulatory oversight. As a result, liabilities to the Army
   environmental program could increase through environmental costs for US.
   forces stationed in Germany. Army liabilities could also increase because of
   German regulatory enforcement actions against military, civilian, and local
   national personnel in Germany thereby complicating U.S relations with
   Germany.




                                       13
Recommendations

    We recommend that the Commander, United States Army, Europe

           1. Provide clear, comprehensive guidance on the impact of the 1993
    Amendment of the German Supplementary Agreement to ensure that
    environmental personnel at military facilities in Germany have a complete
    understanding of German environmental requirements applicable to the forces

            2. Develop and publish a strategy to support environmental personnel at
    military facilities in Germany in response to the impacts of the 1993
    Amendment of the German Supplementary Agreement.

            3. Provide training on Recommendations 1. and 2. to ensure
    environmental personnel at military facilities in Germany have the opportunity
    to discuss the 1993 Amendment of the German Supplementary Agreement
    changes that affect them personally.


Management Comments Required

    The Commander, United States Army, Europe did not respond to the draft of
    this report in time for comments to be incorporated into the final report.




                                        14
Appendix A. Evaluation Process


Scope

    We reviewed environmental policies, program requirements, and liabilities in
    Germany. Specifically, we reviewed environmental policies and procedures at
    the BSBs, ASGs, U.S. Army Claims Service, Army Corps of Engineers, U.S
    Army Europe, U S. European Command, and Center for Health Promotion and
    Preventive Medicine

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Department of Defense has established 6 DoD-wide corporate level performance
    objectives and 14 goals for meeting those objectives. This report pertains to
    achievement of the following DoD-wide corporate level objective and goal

        •   Objective: Shape the international environment through DoD
            engagement programs and activities. Goal: Support friends and allies
            by sustaining and adapting security relationships. (DoD-I. 1)

    Environment Functional Area Reform Goals. Most major DoD functional
    areas have also established performance improvement reform objectives and
    goals. This report pertains to achievement of the following acquisition
    functional area objective and goal.

        •   Objective: Achieve compliance with applicable Executive Orders and
            Federal, State, and inter-state, regional, and local statutory and
            regulatory environmental requirements. Goal: Reduce the number of
            new, open, and unresolved letters of concern and enforcement actions
            (Env-2.1)


Methodology

    To accomplish the evaluation, we identified and analyzed existing requirements,
    policy, and guidance related to DoD overseas environmental efforts. We'

        •   conducted interviews, site visits, and data collection at DoD,
            Department of the Army, Army Staff, Unified Commands, and Service
            Centers,

        •   evaluated the Army environmental program requirements in Germany,
            and,

                                       15
        •   developed potential findings for verification.

    Limitations to Evaluation Scope. We concentrated our efforts on compliance
    with environmental requirements. Our evaluation did not determine the extent
    of the liabilities to the DoD and the Army for complying with German
    environmental requirements, nor did we attempt to validate USAREUR cost
    estimates.

    Evaluation Type, Dates, and Standards. We performed this program
    evaluation from November 1998 through May 1999 in accordance with
    standards issued by the Inspector General, DoD We did not rely on computer-
    processed data or statistical sampling procedures.

    Contacts During the Evaluation. We visited or contacted individual
    organizations within DoD. Further details are available upon request.



Management Control Program

    DoD Directive 5010.38, "Management Control Program," August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Controls. We reviewed the adequacy of the
    Army management controls over the environmental program overseas. We did
    not assess management's self-evaluation of these controls because we found no
    material control weaknesses.

    Adequacy of Management Controls. The Army management controls we
    reviewed for the environmental program overseas were adequate as they applied
    to the evaluation objectives; we identified no material management control
    weaknesses.



Summary of Prior Coverage

    General Accounting Office (GAO), Report No. RCED-94-55, "International
    Environment: Improved Procedures Needed for Environmental Assessments of
    U.S. Actions Abroad," February 11, 1994.

    Office of the Inspector General, Department of Defense, Report No. 98-025,
    "Management and Administration of International Agreements in the
    Department of Defense," November 19, 1997

    Inspector General of the Air Force Report No PN- 95620 "Environmental
    Compliance in Foreign Countries," August 9, 1995

                                         16
Appendix B. Criteria


Executive Order
    Executive Order 12114. This order provided information to decisionmakers to
    heighten awareness to environmental concerns and facilitate environmental
    cooperation with foreign nations.



Congressional Policy

     National Defense Authorization Act for Fiscal Year 1991. This act required
     the Secretary of Defense to develop a policy for determining environmental
     requirements for military installations located outside the United States. In
     addition, the Secretary must ensure that the policy considers protecting the
     health and safety of military and civilian personnel assigned to those
     installations.



Overseas Specific
     Status of Forces Agreement. This agreement obligates the U.S. forces to
     respect the host nation laws and to avoid actions that would derogate host nation
     relations. The SOFA includes claims and residual value provisions applicable to
     em;,ironmental contamination, and defines DoD responsibility with host nation
     laws.

     Overseas Environmental Baseline Guidance Document The Overseas
     Environmental Baseline Guidance Document provides specific criteria, which
     establish baseline guidance for environmental protection at DoD installations
     overseas. The document implements DoD Instruction 4715.5 and sets minimum
     environmental standards by taking into consideration particular provisions of
     United States laws respecting environmental protection. The Overseas
     Environmental Baseline Guidance Document does not apply to the determination
     or conduct of remedial clean-up actions to correct environmental problems
     caused by DoD past activities. Such action shall be determined and conducted
     in accordance with applicable international agreements, Status of Force
     Agreements, and U.S. Government policy.




                                         17
   Final Governing Standards. The Final Governing Standards are the sole
   compliance standards at DoD installations in foreign countries. The standards
   apply to operation of DoD Components at installations overseas, and the heads
   of the DoD Components are obligated to ensure compliance to those standards


Army

   AR 200-1, "Environmental Protection and Enhancement," Chapter 14,
   Army Environmental Program In Foreign Countries. This chapter clarifies
   those environmental requirements and standards that are applicable to Army
   activities located in or operating in foreign countries The objective of the
   Army environmental program overseas is to ensure compliance with applicable
   standards and to enhance environmental quality. In addition, the program is
   required to ensure human health and to provide long term access to the air, land
   and water needed to protect U. S. interests.

   Army Policy Memorandum, Policy for Funding Environmental Program
   Requirements, April 22, 1996. This instruction is applicable to program
   resources required to mitigate actual or imminent health and environmental
   hazards and to comply with legally-mandated requirements, agreements and
   other judgments.




                                       18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Environmental Security)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense for Policy
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Chairman, Joint Chiefs of Staff
Director, Logistics (J -4)

Department of the Army
Assistant Secretary of the Army (Installations, Logistics and Environmental)
Auditor General, Department of the Army
Office of the Assistant, Chief of Staff for Installation Management
Commander, United States Army, Europe and Seventh Army
Commander, U. S. Army Corps of Engineers

Unified Command
Commander in Chief, U. S. European Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                           19
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
   Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform




                                           20
Evaluation Team Members
The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD prepared this report.

Paul J. Granetto
William C. Gallagher
Michael R. Herbaugh
LTC George P. Marquardt, USA
LTC Stuart G. Harrison, USA
Lorretta F. Swanson
Marcia L. Kilby
Sylvia Powell




                                   21
